No._________
In the United States Supreme Court
SAE HAN SHEET CO., LTD.,
Petitioner,
v.
EASTMAN PERFORMANCE FILMS, LLC,
Respondent.

On Petition For A Writ of Certiorari to the
U.S. Court of Appeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Michael S. Kimm, Esq.
Counsel of Record for Petitioner
Jonathan Lugo, Esq.
KIMM LAW FIRM
333 Sylvan Avenue, Suite 106
Englewood Cliffs, NJ 07632
Tel 917-477-8500

QUESTION PRESENTED
1. The district court below dismissed Petitioner’s complaint
with prejudice based upon a false representation made by
Respondent and without providing Petitioner a specific
warning required by case law going back to the early 1990s,
when the Court last reviewed the sanction of dismissal with
prejudice. The court of appeals glossed over the Draconian
dismissal in a summary, unpublished affirmance.
Respondent and its counsel were effectively rewarded for
their false representation instead of being themselves
sanctioned.
The question before the Court is whether lower courts must
refrain from using the sanction of dismissal unless egregious
conduct justifying dismissal is committed in the face of direct,
specific warnings in advance because dismissals impair with
the right of access to the Courts and due process of law.
LIST OF PARTIES
The parties below were Petitioner Sae Han Sheet Co., Ltd.,
of South Korea, as plaintiff, and Respondent Eastman
Performance Films, LLC, as defendant.
CORPORATE DISCLOSURE
Petitioner/Plaintiff Sat Han Sheet Company, Ltd., is
not a publicly-traded company situated in the United States,
although it is authorized to do business in the State of New
York, as it is a closely-held entity organized under the laws of
the Republic of Korea.

-i-

TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iv
PETITION FOR A WRIT OF CERTIORARI . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . 5
RELEVANT CONSTITUTIONAL PROVISIONS . . . . . . . 6
RELEVANT RULES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . 8
Plaintiff's Establishment of the Suntek Business
in South Korea. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Defendant Strategic Change of Ingredients. . . . . . 12
Defendants' Deceptive Business Practices . . . . . . . 14
The Forced Closure of Plaintiff's Business. . . . . . . 19
REASONS FOR GRANTING A WRIT . . . . . . . . . . . . . . . 21

-ii-

I

BECAUSE THE DISTRICT COURT'S
DRACONIAN DISMISSAL WAS PREDICATED
ON RESPONDENT AND COUNSEL'S LACK
OF CANDOR AND WAS NOT SUPPORTED BY
INDEPENDENT, RELIABLE FACTS, THE
ORDERS BELOW SHOULD BE REVERSED
AS A MATTER OF LAW . . . . . . . . . . . . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

-iii-

TABLE OF AUTHORITIES
Case Law
Aoude v. Mobil Oil Corporation,
892 F.2d 1115, 1118 (1 st Cir. 1989) . . . . . . . . . . 20-21
Boddie v. Connecticut,
401 U.S. 371, 380, 91 S. Ct. 780, 787 (1971). . 17, 19
Chambers v. NASCO, Inc.,
501 U.S. 32, 111 S. Ct. 2123, 115 L.Ed.2d 27
(1991) . . . . . . . . . . . . . . . . . . . . . . . . . 17-18, 20, 23-24
Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384, 405,110 S. Ct. 2447, 110 L.Ed.2d
359 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 18, 20
Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 238, 246, 88 L. Ed. 1250, 64 S. Ct. 997
(1944) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 20
Link v. Wabash R. Co.,
370 U. S. 626, 630-631, 82 S.Ct. 1386, 8 L. Ed. 2d
734 (1962) . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 19-20
McComb v. Jacksonville Paper Co.,
336 U.S. 187, 69 S. Ct. 497, 93 L.Ed. 599 (1949)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17
National Hockey League v. Metropolitan Hockey Club, Inc.,
427 U.S. 639, 49 L. Ed. 2d 747,
96 S. Ct. 2778 (1976) . . . . . . . . . . . . . . . . . . . . . 17, 20

-iv-

Roadway Express, Inc. v. Piper,
447 U.S. 752, 65 L. Ed. 2d 488, 100 S. Ct. 2455
(1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
Societe Internationale v. Rogers,
357 U.S. 197, 78 S. Ct. 1087 (1958) . . . . . . . . . 17, 19
United States v. Hudson,
11 U.S. 32, 7 Cranch 32, 34,3 L. Ed. 259
(1812) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 19-20
United States v. Shaffer Equip. Co.,
11 F.3d 450, 461 (4th Cir. 1993) . . . . . . . . . . . . 23, 24
Constitution
Amendment V. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Amendment XIV. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statutes & Rules
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
S. Ct. Rule 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-3
Miscellaneous Authority
ABA RPC 3.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ABA RPC 3.4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Va State Rule of Professional Code 3.3 . . . . . . . . . . . . . . . 3

-v-

-vi-

PETITION FOR A WRIT OF CERTIORARI
Honorable Chief Justice Roberts and Associate Justices of
the Supreme Court of the United States:
Petitioner Sae Han Sheet Co., Ltd., respectfully prays that
a writ of certiorari issue to review the judgment of the United
States Court of Appeals for the Fourth Circuit, entered
November 24, 2020, which erroneously affirmed the lower
courts’ judgment, and thereby committed palpable injustice.
This case warrants review because the sparse line of
authority addressing “dismissals of actions as a sanction”
appears to have been most recently reviewed in 1991, and the
abusive dismissal below provides a sound basis to review the
law so as to provide further guidance to the lower courts and
to curb poor decisions that amount to “judicial tyranny.” See
infra at 17.
The United States District Court for the Western District of
Virginia, where this case filed, dismissed a properly-venued,
valid, contract action while it was being contested and was
undergoing pre-trial discovery and conferences before the
assigned magistrate judge. The district judge who dismissed
the action “with prejudice” as a purported “sanction” for
Petitioner-plaintiff’s alleged “violation” of a Court Order,
failed to comply with law that was settled decades ago; failed
to provide a specific warning and pre-deprivation process; and
failed to consider Respondent and its counsel’s misconduct.
The Court of Appeals for the Fourth Circuit apparently
applied a “discretionary dismissal” standard, and thereby
committed a manifest error of law, despite the fact that the
essential factual record, pertaining to Respondent and its
counsel’s materially false statement, was uncontested.

-1-

The dismissal order of the district court was borne of
impatience, failure of due process, and Respondent’s false
representation to the district court which the Respondent’s
counsel, who was under a duty of candor, failed to cure below
despite repeated opportunities and counsel’s affirmative duty
to do so.
The dismissal was granted specifically in response to
Respondent’s request that the district court deem Petitioner’s
alleged “delay” of one week, in responding to Respondent’s
Rule 12(b)(6) motion to dismiss. See Docket Entry 50, infra
Point I. When Respondent made that request, Respondent
knew full well that Petitioner was not late and that Petitioner
was actually early by a full week. However, the district court
failed to consider or apply the calendar properly; heeded
Respondent’s counsel blindly; and simply adopted
Respondent’s argument, see District Court’s Decision and
Order, App-1 to App-, even though that argument was
predicated upon counsel’s false statement to the district court.
Respondent’s counsel, McGuire Woods LLP, is generally an
esteemed law firm which boasts among its recent clientele a
then-sitting President of the United States, as well a thensitting Vice-President of the United States, and a long list of
Fortune 500 entities.
When Respondent’s counsel presented a Rule 12(b)(6)
motion to dismiss the complaint, below, the district court
appears to have assumed that every statement contained in
Respondent’s written brief would, of course, be true. Yet, the
pivotal fact stated by McGuire Woods was wrong, and
Petitioner explained the correct set of facts. The correct set
of facts were disregarded by the district court even on a
motion for reconsideration, see A104-108; and totally
disregarded by the Fourth Circuit as though to hold one’s
palms to the eyes to avoid the reality that would be faced if
-2-

the eyes were open. See App-10. Importantly, Respondent
and its counsel failed to admit their wrongness and failed to
cure their misrepresentation, and thereby committed a dual
lack of candor to the tribunals.
Respondent was alleged to be a legal person separate and
distinct to various forerunner entities that created a complex
web of potential defendants in the underlying distributorship
contract dispute involving the sale of Suntek brand car
window tints in South Korea.
On April 29, 2019, Petitioner's First Amended Complaint
was filed with the district court’s leave to amend. A56.
On May 13, 2019, defendants named in the original
complaint, Eastman Chemical and Commonwealth
Laminating, filed their motion to dismiss the first amended
complaint under Rule 12(b)(6). ECF42, A80. On May 13,
2019, these defendants also filed a motion to extend their
time to respond to the complaint, and that motion was
granted on May 16, 2019. A76, A89.
On May 31, 2019, ECF47, newly-served defendants whose
identities had been represented to be successor-entities of
Commonwealth Laminating, filed their own motion to dismiss
for failure to state a claim under Rule 12(b)(6) by joining in
the May 13, 2019, motion of the earlier-filed defendants. A93.
Respondent’s motion to dismiss, by its joinder, was not filed
until May 31, 2019, By Local Rule, Petitioner’s opposition to
the new Rule 12(b)(6) motion was due 14 days after
Respondent’s motion-joinder, or June 14, 2019.
On June 3, 2019, Petitioner’s opposing memorandum was
filed. ECF48. Thus, Petitioner’s filing was 8 days earlier than
required by law.
-3-

Despite this fact, in its June 10, 2019, Reply, Respondent
falsely told the district court, ECF50, as its first argument:
"A. The Court Should Consider Eastman and
Commonwealth's Motion Well Taken Because Plaintiff Failed
to File a Timely Response." Since Respondent, being situated
in the Western District of Virginia, and its counsel being
engaged in routine practice before the Western District of
Virginia, they knew full well an opposition is due 14 days
after any motion is filed, and the 14 day deadline is routinely
extended by a simple paragraph motion filed within the
initial 14 day period.
On September 24, 2019, the district court adopted McGuire
& Woods’ false representation contained in Respondent’s first
argument that Petitioner had “failed to file a timely
response.” Since no papers are permitted after reply papers
are filed, and the reply papers were filed by Respondent as
the party seeking relief, Petition was relegated to wait the
motion sequence out.
In 30 years of litigation practice in state and federal courts,
Petitioner’s counsel has never witnessed any case in which a
week’s alleged “delay” was the basis of a Draconian dismissal
granted by any court, let alone sustained by any reviewing
court, but that is what the district court granted, by blindly
adopting the factual representation made, flagrantly falsely,
by the McGuire Woods lawyers who represented the wellheeled Respondent global conglomerate with endless
resources to fight any dispute on its merits. But the “week’s
delay” perceived by the district court was itself incorrect.
In its judgment filed November 17, 2020, see App-10, the
Fourth Circuit elected to raise its “palms” to cover its eyes
and effectively insulated the Respondent, Respondent’s
counsel and failed to take any action for counsel’s lack of
candor to the tribunal, and granted summary affirmance that
-4-

eliminated a case from its docket but caused a palpable
injustice to Petitioner. In its order filed December 15, 2020,
the Fourth Circuit denied rehearing and rehearing en banc.
See App-13 to App-15.
Because this Court is the Court of last resort, Petitioner has
no choice but to seek this Court’s sense of fair play and
substantial justice, and seek certiorari to remedy a egregious,
tyrannical decision of the district court that disregarded
settled law; that insulated counsel’s breach of the duty of
candor to the tribunals; and that failed to apply substantial
justice, with utter impunity and impatience. As will be
discussed below, the Court’s last decision on the subjectmatter of sanction of dismissal appears to have been rendered
in 1991 and warrants revisiting now.
OPINIONS BELOW
The decision and order of the United States District Court
for the Western District of Virginia, filed September 24, 2019,
is at App-1 to App-6. The decision and order of the district
court, denying reconsideration, filed October 10, 2019 is at
App-7 to App-9.
The judgment of United States Court of Appeals for the
Fourth Circuit, filed November 17, 2020, is at App-10 to App12. The judgment of the Court of Appeals, denying rehearing
and rehearing en banc, filed December 15, 2020 is at App-13
to App-15.
STATEMENT OF JURISDICTION
The judgment of United States Court of Appeals for the
Fourth Circuit and order denying rehearing and rehearing en
banc, having failed to render substantial justice, the Supreme
Court has jurisdiction under 28 U.S.C. § 1254(1) and Rule
-5-

10(a) of the Supreme Court Rules in that the lower courts
have so far departed from the accepted and usual course of
judicial proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this Court's
supervisory power to prevent judicial tyranny.
RELEVANT
CONSTITUTIONAL
PROVISION
U.S. Const. Amend V:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service
in time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation. [Emphasis added.]
U.S. Const. Amend XIV:
. . . nor shall any State deprive any person of
life, liberty, or property without due process of
law; . . . .
RELEVANT RULES
Federal Civil Rule 12(b)(6) states:

-6-

Rule 12. Defenses and Objections: When and
How Presented; Motion for Judgment on the
Pleadings; Consolidating Motions; Waiving
Defenses; Pretrial Hearing
(b) How to Present Defenses. Every
defense to a claim for relief in any pleading
must be asserted in the responsive pleading if
one is required. But a party may assert the
following defenses by motion:
***
(6) failure to state a claim upon which
relief can be granted; and
ABA RPC 3.3 “Candor Toward the Tribunal” states:1
(a) A lawyer shall not knowingly:
(1) make a false statement of fact or law to a tribunal
or fail to correct a false statement of material fact or
law previously made to the tribunal by the lawyer;
***

1 Similarly, Virginia State Rule of Processional Code 3.3 (“Candor Toward
The Tribunal”) states in relevant part: “(a) A lawyer shall not knowingly: (1)
make a false statement of fact or law to a tribunal; (2) fail to disclose a fact to a
tribunal when disclosure is necessary to avoid assisting a criminal or fraudulent
act by the client; (3) fail to disclose to the tribunal controlling legal authority in
the subject jurisdiction known to the lawyer to be adverse to the position of the
client and not disclosed by opposing counsel; or (4) offer evidence that the
lawyer knows to be false. If a lawyer has offered material evidence and comes
to know of its falsity, the lawyer shall take reasonable remedial measures.”
[Emphasis added.]

-7-

(c) The duties stated in paragraphs (a) and (b)
continue to the conclusion of the proceeding, and apply
even if compliance requires disclosure of information
otherwise protected by Rule 1.6.
ABA RPC 3.4 “Fairness to Opposing Party & Counsel”
states:
A lawyer shall not:
***
(c) knowingly disobey an obligation under the rules
of a tribunal except for an open refusal based on an
assertion that no valid obligation exists;
STATEMENT OF THE CASE
This case has been defended by several lawyers of the
McGuire & Woods firm on behalf of the Respondent. Thus,
the problem presented with counsel’s violation of the duty of
candor under RPC 3.3 and RPC 3.4, relevant portions of
which are quoted above, was not the work product of a lone,
young associate but has been condoned and participated by
multiple lawyers of that firm including Matthew Devane
Fender, Andrew F. Gann, Jr., Robert W. Loftin, and Phillip
Thomas DiStanislao, III.
Given that RPC 3.3 contains an affirmative duty to “correct
a false statement of material fact or law previously made to
the tribunal by the lawyer,” Respondent and counsel’s failure
to do so, coupled with their use of the “open palms” to cover
their eyes to dodge reality is deeply troubling.
Petitioner is a small “mom and pop” business operated by
two officers, whose principal Inkwon Kim, full of life, in his
-8-

mid-50s, committed suicide a day before flying to the United
States to attend deposition. Given the timing of the suicide,
this case clearly fueled a significant amount of stress from the
endless litigation involving repeated motions to dismiss for
failure to state a claim, gamesmanship in pre-trial discovery,
and the nightmare of his business being wiped out after he
had worked to establish a successful car-window tinting
business from nothing several years before Respondent
acquired the seller, Commonwealth Laminating Company.
Gone were the days of cordial and mutually-beneficial
business relationship with Commonwealth, and here to stay
was a new era of Respondent denying responsibility for
defective films that its own officers had admitted were
defective.
Petitioner’s business dealings with Commonwealth
Laminating began in 2008 and lasted several years as it
effectively concluded in 2016 because Respondent, who
acquired Commonwealth at some point before 2016 had
changed one of three essential ingredients that caused the
tint-film to spoil, either while the supplies were held as stock
in Petitioner’s supply warehouse or after the film had been
applied to the vehicles of end-user consumers.
The defects were so widespread that they affected virtually
all of the inventory held at Petitioner’s warehouse, and was
confirmed by Respondent during one of its inspection visits of
the warehouse. As stated in the first amended complaint filed
below (FAC), on November 16, 2016, following Respondent's
visit to plaintiff's plant visit, in an email from Tim Gerasimov
to Ashley Reynolds and Jerry Robertson, all three being
officers or agents of defendants, defendants admitted that at
least 202 rolls of different types of tinting film were confirmed
defective and required "reimbursement" totaling $248,408 for
interim reimbursement:

-9-

Hello Everyone, Please find attached the
inspection results for the rolls that we confirmed
for reimbursement. There are total of 202 rolls
of different type in this list.
Ashley , Could you please add a column with
price per film type and totals for the
reimbursement and send it to Wing for
approval.
Thank you!
Tim G
(Email with Excel attachment; Exhibit 1).
FAC ¶ 32, A66.
Instead of unconditionally accepting return of its own
defective products and quickly ensuring the continued supply
line, Respondent interposed certain conditions to the
processing of its own defective goods. Respondent created an
impasse, and no return was processed or approved by
Respondent before or after suit was filed by Petitioner.
The pertinent facts are set forth in the First Amended
Complaint, A56, as well as the original Complaint, A11.
Plaintiff's Establishment of the Suntek
Business in South Korea
In December 2014, defendant Eastman Chemical became
the successor-in-interest of a certain written supply chain
agreement previously made in March 2008, which was then
converted into a verbal supply agreement for an indefinite
duration, as of approximately December 13, 2013, between
plaintiff and defendant Commonwealth Laminating. FAC ¶
9; A58.
-10-

Since 2008 plaintiff has been purchasing and re-selling, as
a national distributor in South Korea, certain "Suntek" brand
of "glass tinting film" commonly applied to automobiles and
office windows to serve as (1) sun shader; (2) UV blocker; (3)
heat and glare reducer; (4) privacy enhancer; and other such
benefits. Since the time of plaintiff's business dealings with
Commonwealth, the Suntek film was held out as a superior
auto tint to consumers. A59.
In 2008, Commonwealth Laminating requested plaintiff
serve as its "exclusive distributor" in South Korea when
Suntek had little or no market share in South Korea due to a
general lack of competitiveness. By December 2013, as
plaintiff cultivated a strong, increasingly competitive market
for Suntek products in South Korea, between 2008 and 2013,
Commonwealth cited plaintiff's "inability to meet" sales
minimums as a basis for terminating the 2008 Exclusive
Agreement and unilaterally converted it to a non-exclusive,
verbal agreement, by an email dated December 13, 2013:
Due to SaeHan Sheet's consistent inability to meet the
purchase requirements, we must terminate the agreement.
You will be able to continue to purchase SunTek products
from CLC in 2014, however, you will not be the exclusive
distributor of SunTek products in 2014. Going forward into
2014, you may say that you are an authorized SunTek
distributor, but not the exclusive SunTek distributor.
FAC ¶ 11, A59-60.
As of December 13, 2013, plaintiff continued to purchase
Suntek products through the end of 2016 and would have
continued with this business other than due to defendant's
acts and omissions. FAC ¶ 12, A60.
During the course of its nine (9) year plus sale of the Suntek
-11-

product line, plaintiff made every business effort to expand
the Suntek market not only for its own business gain but also
in the hopes of building a stronger contractual relationship
with Commonwealth and, subsequent to the December 2014
merger and acquisition by Eastman Chemical, with the latter.
FAC ¶ 13, A60.
Defendant Strategic Change of Ingredients
In corporate parlance, the term "cost cutting measure" is
the same as the expression, "increased profitability."
Contemporaneous to its acquisition of the Suntek product line
and the business of Commonwealth Laminating, defendants
Eastman Chemical undertook a post-merger "profitability
review" of the Suntek product line. Upon information and
belief, defendant Eastman Chemical came to a decision,
within its upper management, that "cost cutting measures"
based upon the elimination of ingredients. FAC ¶ 14, A60.
As previously manufactured by Commonwealth, the Suntek
tinting film involved three (3) principal ingredients in the
manufacturing process and one of these was quietly decided
to be removed. FAC ¶ 15, A60.
To Saehan and presumably all of their customers,
defendants represented that the product line that existed as
Suntek tinting film, as manufactured by Commonwealth, was
being continued to be manufactured in the "same manner,"
after the merger. Before and after the 2014 merger of
Commonwealth and Eastman, agents of Commonwealth
including Jerry Robertson visited and otherwise
communicated with plaintiff and represented that the same
product line would be continued to be manufactured using the
same materials and processes as Commonwealth had
established. On December 10, 2015, Jerry Robertson came to
Seoul, and we met at the Marriott Hotel in Seoul and had one
-12-

such discussion. He assured plaintiff at that time that
nothing would be changed and the same product would be
continued indefinitely and, if any change were to be
forthcoming, Sae Han would be the first to know. FAC ¶ 16,
A60.
In fact, from approximately latter 2015 or early 2016,
defendants began to manufacture the Suntek tinting film
without a key ingredient and sold it throughout the world as
the "same product" as had previously been sold despite the
fact it was not the same product. FAC ¶ 17, A61.
Upon information and belief, defendants' internal research
did not support a long term reliability and usefulness of the
film product with the omitted ingredient. Despite this fact,
and despite defendants' probable knowledge that the omission
of the ingredient would not be beneficial to the film product
line, defendants were motivated to follow a cost-reduction
and/or other "corporate efficiency" strategy in the
manufacturing process. FAC ¶ 18, A61.
After defendants' deliberate decision to omit a key
ingredient, all products of Suntek tinting film were no longer
the same as when Commonwealth Laminating was
manufacturing the Suntek line. Defendants continued to
deceive plaintiff into believing that the product line had not
changed at all. Plaintiff procured approximately $400,000 in
2015 and approximately $300,000 worth of products for the
nine months of 2016 through September 30, 2016. FAC ¶ 19,
A61.
As a small business whose principal product line was the
Suntek tinting film, being sold at wholesale to principally five
retailer-customers, consistency and reliability of the product
line were not only essential but life and death. FAC ¶ 20,
A61-62.
-13-

Defendants' defective product line is visible with small
mold-like craters that are visible throughout a sheet of tinting
film much like the following example. Like mold, because it
grows and creates an unpleasant visual appearance, rather
than a clean, sleek sheet of film coating properly expected by
end-user consumers, it is unsuitable for sale and unsuitable
for even for promotional giveaways. FAC ¶ 21, A62.

Defendants' Deceptive Business Practices
In early October 2016, plaintiff complained of defect claims
resulting in return of defective products from
retailer-customers and claims from end-user consumers
against the retailers. In an email dated October 10, 2016,
plaintiff told the urgency of the situation to defendants:
Dear Ashley
Almost all of the SunTek films that were
imported during 2016 are being returned by our
distributors due to defects in the film.
We have examined all the defective films and
each of the production LOT.
Please check the attached file to see the
TOTAL LIST OF DEFECTIVE PRODUCTS
involved.
We will send the defective film samples
immediately for your verification.
The real urgency at the present time is that we
do not have any inventory of NORMAL FILMS
to sell or to exchange.
-14-

Therefore we must urge your company to
immediately replace some of the defective films
listed below as soon as possible.
[list of films omitted]
Please send VIA AIR in order to save time and
to reduce further loss to our business.
FAC ¶ 22, A63.
Defendants claimed not to know what was going on but
knew or should have known exactly what was going on: their
product line was suffering from a manufacturing defect. They
requested explanation of what "defect" meant and plaintiff
provided repeated examples and explanations to no avail.
FAC ¶ 23, A63.
Defendants had sold and delivered significant volumes of
defective tinting film products to customers in approximately
2015 and 2016. Sae Han and other customers sold them to
countless end-user consumers and thereby placed themselves
in jeopardy of consumer liability lawsuits and claims.
Defendants knew that plaintiff was selling nothing but
Suntek products and that a disruption of the supply would be
a life or death event, as was discussed numerous times. FAC
¶ 24, A63-64.
According to defendants' officers, in August 2016, their
customer located in Germany filed a product defect claim
based upon manufacturing defects which occurred after
defendants removed a key ingredient from their ingredients.
This story was admitted to plaintiff during the November 16,
2016, visit to plaintiff in South Korea by defendants'
officers/agents Jerry Robertson and Tim Gerasimov, not in
the context of disclosure but in the context of emphasizing
that "the problem has been fixed." FAC ¶ 25, A64.
-15-

Internally, defendants adopted a policy of "don't tell" other
customers that their Germany customer had presented defect
claims, and to disregard any more customer complaints.
Thus, even on November 16, 2016, when defendants briefly
mentioned that a Germany customer had returned products
with a defect claim, they did not disclose the reasons behind
the defect, and generally avoided the topic. FAC ¶ 26, A64.
Knowing that defendants were exposed to liability,
defendants then deployed a two-part strategy. First, they
would deny that there was anything wrong with their
products despite the defects and despite their knowledge to
the contrary. Second, defendants offered returns if Saehan
and presumably other customers signed off on general
releases as a condition of defendants' acceptance of defective
goods so as to sandbag and prevent plaintiff from filing any
lost of profit claim stemming from the defects. FAC ¶ 27, A64.
During October, November, and December 2016,
defendants' officers and managers were engaged in an
aggressive attempt to contain adverse news stemming from
their knowing or reckless injection of defective products into
the stream of United States commerce and global commerce.
As they realized that the problem was spreading and could
spread even further beyond their control, in Asia and Europe,
they repeatedly urged plaintiff to sign a General Release as
a condition of receiving merchantable products in exchange
for a finite defects claim. They failed to take direct
responsibility for their actions and failed to replace the goods
with non-defective goods in a timely fashion, without
conditions. FAC ¶ 28, A64.
By November 2016, defendants' failure to process the
defects claim became life or death for plaintiff as plaintiff's
handful of retailer-customers told plaintiff that any further
defects would make it impossible to sustain the business
-16-

relationship with plaintiff and those customers had already
begun developing new, third-party supply lines with reliable,
defect-free lines of products, believed to be non-Suntek lines,
for possible change of product sourcing. FAC ¶ 29, A65.
On November 12, 2016, defendants' officer Ashley Reynolds
sent plaintiff and email in which the defendants admitted
that their products were defective:
Please see the attached sheet containing all
rolls that we shipped to you this year and the
batch numbers.
• All rolls with purple are from the recent
claim and are already approved for credit.
• All rolls in dark green and labeled 100%
SAFE are A grade and can be sold without any
issues. These rolls are free from defect.
• The rolls highlighted in Red are
defective and we will include these rolls in your
credit. No need to be inspected. If you have
shipped this material to a customer already and
it has not been installed, you may want to
contact them and replace this material. (Please
note that once the film is installed on glass, the
defect will not form)
• All rolls in yellow and light green will
need to be inspected by Jerry and Tim during
their visit next week. These are listed below.
Can you please pull 1 roll from these and have
these ready to be inspected upon Jerry's arrival
to save time and avoid any delays:

-17-

FAC ¶ 30, A65.
On November 16, 2016, defendants' agents/officers Jerry
Robertson and Tim Gerasimov personally visited plaintiff's
plant to review and discuss the defects problem. Plaintiff told
Jerry Robertson in no uncertain terms that continued defects
claims would result in plaintiff's buyers abandoning the
business relationship and thereby destroying plaintiff's
business. Plaintiff explained that in Korean culture, the
spreading of honorable or dishonorable business practice,
through word of mouth or through social media, routinely
result in the destruction of corporate lives and emphasized
that plaintiff was in peril of such adverse view among its
handful of retailer-customers. FAC ¶ 31, A65.
On November 16, 2016, following the plaintiff's plant visit,
in an email from Tim Gerasimov to Ashley Reynolds and
Jerry Robertson, all three being officers or agents of
defendants, defendants admitted that at least 202 rolls of
different types of tinting film were confirmed defective and
required "reimbursement" totaling $248,408 for interim
reimbursement. FAC ¶ 32, A66.
Before he left plaintiff's plant, Jerry Robertson repeatedly
assured plaintiff in sum and substance that defendants "had
already identified and fixed the problem back in August" and
that "absolutely nothing shipped by you after mid August
2016 is defective; guaranteed." Plaintiff relied upon that
assurance and representation and in turn told its five major
purchasers that Suntek had guaranteed that there would be
no returns from its product line, after the mid-August 2016
manufacturing time-line. FAC ¶ 33, A66.
On November 21, 2016, at 9:25AM, defendants' officer Jerry
Robertson wrote plaintiff an email requesting "your current
SunTek inventory by product and VLT, and by batch number.
-18-

(This can include any rolls returned to you for the defect)."
Although this was couched as an innocuous "inventory check"
request, in fact it was an attempt to assess defendants'
exposure for returns based on goods on hand and goods that
have been returned at Saehan. FAC ¶ 34, A66.
On November 22, 2016, plaintiff responded:
Dear Jerry
As you may well know our inventory at the
present time is a mix of returns and past
inventory and needs to be verified on paper as
well as what's in stock. In addition, with returns
coming in almost daily our inventory is bound to
change as time passes. I do not see the point of
reporting our current inventory situation which
will continue to change until all the defective
films are recalled and completely quarantined .
Would you please let me know the reason for
your request?
FAC ¶ 35, A67.
Defendants failed to respond to plaintiffs' foregoing email
but plaintiff then provided then-current status of inventory.
Despite these facts, defendants still failed to refill the
defective goods with non-defective goods and failed to
reimburse plaintiff's purchases and financial losses and abject
failed and refused to prevent plaintiff's losses. Plaintiff's
initial financial losses were at least $248,408 in defective
goods "confirmed" by defendants. FAC ¶ 36, A67.
The Forced Closure of Plaintiff's Business
Despite the interim-confirmation of approximately $250,000
-19-

in defective goods, which plaintiff had previously paid for,
defendants failed to reimburse plaintiff's loss or replace the
defective products. FAC ¶ 37, A67.
The five purchasers that comprised the majority of
plaintiff's retailer-customers were known to defendants. By
early 2017, with no solution from defendants, and thus no
solution from plaintiff, and with defects-claims mounting
more and more, all five customers of plaintiff ceased doing
business with plaintiff citing the lack of adequate assurance
and citing unreliable product quality. FAC ¶ 38. A67.
Due to defendants' failure to immediately cure and remedy
the defect, by shipping defect-free products and reimbursing
for plaintiff's then-losses, or reimbursing plaintiff's
purchase-money after its officers "confirmed" on repeated
emails that at least $248,408 was due and owing to plaintiff,
so that plaintiff could provide adequate assurance of
continued or at least future reliability, or cover its business
operations through a third-party supplier, plaintiff lost its
business with no opportunity for plaintiff to recover, and no
ability to transition to other, new customers. FAC ¶ 39, A68.
While we maintain that the initial Rule 12(b)(6) dismissal
order was itself wrong, we maintain that the first amended
complaint, as framed above, amply provided the notice of
claims required by Rule 8 of the Federal Civil Rules.
Regrettably, the courts below never reached that question
directly because the district court opted to rely upon the false
representation of Respondent and its counsel, and granted
dismissal as a “sanction” against Petitioner predicated on the
factually wrong premise that Petitioner was all of one week
late in filing its opposition to Respondent’s renewed motion to
dismiss under Rule 12(b)(6), when in fact Petitioner was
actually 8 days early.
-20-

REASONS FOR GRANTING A WRIT
Petitioner has found no case decided by any court, reported
or unreported, where an alleged “seven day late” papers were
the basis of an action or complaint being dismissed with
prejudice. Such wielding of baseless power in the
administration of justice amounts to “judicial tyranny.”
McComb v. Jacksonville Paper Co., 336 U.S. 187, 69 S. Ct.
497, 93 L.Ed. 599 (1949) (“Obedience must of course be
secured for the command of a court. . . . But courts should be
explicit and precise in their commands and should only then
be strict in exacting compliance. To be both strict and
indefinite is a kind of judicial tyranny.”).
This case involves the district court’s use of its inherent
power to dismiss the case with prejudice when the facts
simply do not justify any sanction, let alone the ultimate
sanction of dismissal. While the Court has issued a handful
of decisions between 1812 and 1991, the Court has yet to
define the permissible “outer limits” of such power that is
routinely wielded by courts. See United States v. Hudson, 11
U.S. 32, 7 Cranch 32, 34, 3 L. Ed. 259 (1812); Hazel-Atlas
Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 246, 88 L. Ed.
1250, 64 S. Ct. 997 (1944); McComb v. Jacksonville Paper Co.,
336 U.S. 187, 69 S. Ct. 497, 93 L.Ed. 599 (1949); Societe
Internationale v. Rogers, 357 U.S. 197, 78 S. Ct. 1087 (1958);
Link v. Wabash R. Co., 370 U. S. 626, 630-631, 82 S. Ct. 1386,
8 L. Ed. 2d 734 (1962); Boddie v. Connecticut, 401 U.S. 371,
380, 91 S. Ct. 780, 787 (1971); National Hockey League v.
Metropolitan Hockey Club, Inc., 427 U.S. 639, 49 L. Ed. 2d
747, 96 S. Ct. 2778 (1976); Roadway Express, Inc. v. Piper,
447 U.S. 752, 65 L. Ed. 2d 488, 100 S. Ct. 2455 (1980); Cooter
& Gell v. Hartmarx Corp., 496 U.S. 384, 405,110 S. Ct. 2447,
110 L.Ed.2d 359 (1990); Chambers v. NASCO, Inc., 501 U.S.
32, 111 S. Ct. 2123, 115 L.Ed.2d 27 (1991)
-21-

In 1990, the Court decided Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384, 405,110 S. Ct. 2447, 110 L.Ed.2d 359 (1990), for
the proposition that “[a]n appellate court should apply an
abuse-of-discretion standard in reviewing all aspects of a
district court’s decision in a Rule 11 determination. A district
court would necessarily abuse its discretion if it based its
ruling on an erroneous view of the law or on a clearly
erroneous assessment of the evidence.” In 1991, the Court
decided Chambers v. NASCO, Inc., 501 U.S. 32, 111 S. Ct.
2123, 115 L.Ed.2d 27 (1991) for the proposition that the
courts have inherent power to sanction a party for unethical
conduct such as committing fraud upon the courts or
continuously taking action to delay proceedings, repeatedly
violating court orders, and asserting meritless motions or
pleadings and delaying actions, where the courts have
provided warnings to the party and counsel that their actions
were sanctionable.
Within the range of these two cases, the principles that
emanate are (1) that any potential sanction must be warned;
(2) must be sufficiently egregious; and (3) the factual record
must be adequately and correctly developed, i.e., showing that
the facts actually warranted the sanction imposed.
In our case, the ultimate sanction of dismissal was applied
by a district court with utter impatience to reality. The lower
courts have all disregarded the reality that Respondent and
its counsel provided the lower courts with demonstrably false
facts and failed to come clean despite their continuing ethical
duty to do so and, in violation of their ethical duty, they have
prolonged their ethical violation of candor to the courts.2
2 While an ethical violation may be the subject of a licensing board’s
investigation at some point, because the case law, as discussed principally
in Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 405,110 S. Ct. 2447, 110
L.Ed.2d 359 (1990) and Chambers v. NASCO, Inc., 501 U.S. 32, 111 S. Ct.

-22-

I
BECAUSE THE DISTRICT COURT'S DRACONIAN
DISMISSAL WAS PREDICATED ON RESPONDENT
AND COUNSEL’S LACK OF CANDOR AND WAS NOT
SUPPORTED BY INDEPENDENT, RELIABLE FACTS,
THE ORDERS BELOW SHOULD BE REVERSED AS A
MATTER OF LAW
It is settled that the Due Process Clauses protect civil
litigants who seek recourse in the courts, both as plaintiffs
and as defendants. In Societe Internationale v. Rogers, 357
U.S. 197, 78 S. Ct. 1087 (1958), for example -- where a
plaintiff's claim had been dismissed for failure to comply with
a trial court's order -- the Court read the "property"
component of the Fifth Amendment's Due Process Clause to
impose "constitutional limitations upon the power of courts,
even in aid of their own valid processes, to dismiss an action
without affording a party the opportunity for a hearing on the
merits of his cause." Id., at 209. Similarly, the Fourteenth
Amendment's Due Process Clause applies to the States from
denying potential litigants use of established adjudicatory
procedures, when such court action would be "the equivalent
of denying them an opportunity to be heard upon their
claimed [rights]." Boddie v. Connecticut, 401 U.S. 371, 380, 91
S. Ct. 780, 787 (1971).
The power to punish a recalcitrant party for misconduct
during litigation must be tempered to the facts of the case,
and cannot be excessive. The Court has held that “a district
court possesses inherent powers that are ‘governed not by
rule or statute but by the control necessarily vested in courts
2123, 115 L.Ed.2d 27 (1991) requires consideration of the conduct of
counsel, the inquiry should also be made by the courts and not merely
deferred to a regulatory review removed from the context of the litigation.

-23-

to manage their own affairs so as to achieve the orderly and
expeditious disposition of cases.’” Link v. Wabash R. Co., 370
U. S. 626, 630-631, 82 S. Ct. 1386, 8 L. Ed. 2d 734 (1962); see
United States v. Hudson, 11 U.S. 32, 7 Cranch 32, 34, 3 L. Ed.
259 (1812); see also Hazel-Atlas Glass Co. v. Hartford-Empire
Co., 322 U.S. 238, 246, 88 L. Ed. 1250, 64 S. Ct. 997 (1944)
(holding that the inherent power is necessary to enforce laws
against recalcitrant “marauders”); National Hockey League v.
Metropolitan Hockey Club, Inc., 427 U.S. 639, 49 L. Ed. 2d
747, 96 S. Ct. 2778 (1976) (holding that dismissals with
prejudice or defaults are drastic sanctions and are "extreme");
Roadway Express, Inc. v. Piper, 447 U.S. 752, 65 L. Ed. 2d
488, 100 S. Ct. 2455 (1980) (the extreme sanction of dismissal
is warranted in some cases); Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384, 405,110 S. Ct. 2447, 110 L.Ed.2d 359 (1990) (in
some cases, dismissal is proper); Chambers v. NASCO, Inc.,
501 U.S. 32, 111 S. Ct. 2123, 115 L.Ed.2d 27 (1991) (holding
that a party’s unethical conduct or repeated violations of
court orders or assertion of meritless motions or pleadings,
when coupled with warnings to the party and counsel that
their actions were sanctionable, would justify dismissal).
Thus, the as the case law is perceived today, something
more than a calendaring mistake, something that is evil or
intentional misconduct, must be implicated before a dismissal
can be sustained. Fraud upon the courts is one valid ground.
“Fraud on the court occurs where it can be demonstrated,
clearly and convincingly, that a party has sentiently set in
motion some unconscionable scheme calculated to interfere
with the judicial system's ability impartially to adjudicate a
matter by improperly influencing the trier or unfairly
hampering the presentation of the opposing party's claim or
defense." Aoude v. Mobil Oil Corporation, 892 F.2d 1115, 1118
(1st Cir. 1989).
By that definition of “fraud upon the courts,” the only party
-24-

that committed such transgression are the Respondent and
counsel, and yet the lower courts simply “rubber stamped” the
bald their statements and have refused to address the realty.
Petitioner has never violated any order specific below and
was certainly never specifically warned that dismissal might
be granted for any specific reason.
Procedurally, the case was still in its pre-answer stage,
where the multiple defendants, who had been joined in the
original complaint, had moved to dismiss the complaint for
alleged failure to state claims under Federal Civil Rule
12(b)(6).
On April 11, 2019, the original complaint was dismissed
with leave to amend. See Docket Report 34, A44.
On April 29, 2019, Petitioner's First Amended Complaint
was filed. A56. Petitioner alleged contracts and other grounds
for claims.
On May 13, 2019, defendants named in the original
complaint, Eastman Chemical and Commonwealth
Laminating, filed their motion to dismiss the first amended
complaint under Rule 12(b)(6). ECF42. On May 13, 2019,
these defendants also filed a motion to extend their time to
respond to the complaint, and that motion was granted on
May 16, 2019. ECF43, ECF44.
On May 31, 2019, ECF45, newly-served defendants whose
identities had been represented to be successor-entities of
Commonwealth Laminating, filed their own motion to dismiss
for failure to state a claim under Rule 12(b)(6) by joining in
the May 13, 2019, motion of the earlier-filed defendants. A90.
As these defendants' motion was not filed until May 31,
-25-

2019, Petitioner's opposition due date was 14 days after
Eastman Performance Films' motion to dismiss was filed,
June 14, 2019.
On June 6, 2019, Petitioner's opposing memorandum was
filed. A96. This filing was 8 days earlier than the due date.
In its June 10, 2019, Reply, Eastman Performance Films
falsely and inaccurately told the District Court, ECF50, as its
first argument: "A. The Court Should Consider Eastman and
Commonwealth's Motion Well Taken Because Plaintiff Failed
to File a Timely Response." This was false and inaccurate as
to Eastman Performance Films since that defendant filed a
motion only on May 31, 2019, against plaintiff's response of
June 6, 2019. Respondent and its counsel have never advised
any of the tribunals below of the falsity in violation of their
affirmative duty to do so.
Between June 6, 2019, and September 24, 2019, the District
Court provided the parties with no hint that the court
perceived there was any procedural deficiency; no order to
show cause was issued to such effect; and no informal notice
was issued to the parties.
On September 6, 2019, stating that the sole defendant
would be Eastman Performance Films, LLC, the Respondent
in this petition. See Docket Entry 68. The stipulated change
of defendants’ roster was academic since the First Amended
Complaint alleged the real party in interest.
On September 24, 2019, after Respondent's second motion
to dismiss under Rule 12(b)(6) having been fully briefed as of
June 6, 2019, the District Court dismissed the First Amended
Complaint by adopting Respondent’s Reply argument, Point
I, for being allegedly “late by a week” when, in fact, Petitioner
was early by 8 days. See ECF74, A97 & ECF75, A100
-26-

(9-24-19).
On October 7, 2019, Petitioner moved for reconsideration to
obtain relief from the district court’s oppression. Petitioner’s
detailed explanation showed that, in fact, Respondent
Eastman Performance Films had provided the District Court
with false information, and its counsel were under an
affirmative duty to clear their misrepresentation but failed to
do so. See A102-A108. Counsel still failed to come clean.
It is settled law that an involuntary dismissal should not be
applied because of a mere days' delay (even if there was
actual delay) because such remedy is too excessive and
draconian. Within the Fourth Circuit, the courts are bound
by United States v. Shaffer Equip. Co., 11 F.3d 450, 461 (4th
Cir. 1993), which stands for the proposition that before a
court applies its inherent power to dismiss a case, the court
must consider the following factors: (1) the degree of the
wrongdoer's culpability; (2) the extent of the client's
blameworthiness if the wrongful conduct is committed by its
attorney, recognizing that we seldom dismiss claims against
blameless clients; (3) the prejudice to the judicial process and
the administration of justice; (4) the prejudice to the victim;
(5) the availability of other sanctions to rectify the wrong by
punishing culpable persons, compensating harmed persons,
and deterring similar conduct in the future; and (6) the public
interest.
In our case, none of these factors were considered, and none
applied ultimately because the motion to dismiss by the only
defendant that matters in the case, Respondent Eastman
Performance Films, whose motion was filed May 31, 2019,
was responded by Petitioner within 6 days.
The Court’s holding in Chambers v. NASCO cautioned "the
inherent power" as the inherent power "must be exercised
-27-

with restraint and discretion" which is defined as "bad faith,
vexatiously, wantonly, or for oppressive reason." Id. at 44-46
(quoting Alyeska Pipeline Serv. Co. v. Wilderness Soc'y, 421
U.S. 240, 258-59, 95 S. Ct. 1612, 44 L. Ed. 2d 141 (1975)).
In line with Chambers, the Fourth Circuit has held that,
using a court's inherent power, a court may issue orders,
punish for contempt, vacate judgments obtained by fraud,
conduct investigations as necessary to exercise the power, bar
persons from the courtroom, assess attorney's fees, and
dismiss actions. However, since orders dismissing actions are
the most severe, such orders must be entered with the
greatest caution. United States v. Shaffer Equip. Co., 11 F.3d
450, 462 (4th Cir. 1993).
By affirming the district court’s unsupportable dismissal,
the Fourth Circuit violated its own binding case law, and
violated a century of case law from this Court, however
sparse, and brushed this case aside. While the case involves
a sum money some legal practitioners and courts may deem
relatively small, the damages claimed in the case amount to
“life or death” for Sae Han Sheet Company.
Here, the District Court resorted to the ultimate measure,
against Petitioner, when it was the reality was that the
Respondent and its counsel who made a factual
misrepresentation and persisted in their lack of candor to the
courts, and no facts justified the Draconian dismissal and no
case law justified any dismissal without a specific advance
warning.
Neither the district court nor the court of appeals even
bothered to provide a pre-termination hearing, and did not
even allow Petitioner’s motion for reconsideration to play out,
and instead summarily denied reconsideration only 3 days
after Petitioner filed it, see Docket Report 81, A109, App-7 to
-28-

App-9, without issuing an order to show cause why
Respondent and its counsel would be deemed to have
committed breach of the duty of candor to the courts and
themselves sanctioned for wasting the district court’s time
(and even disqualified as counsel of record).
The district court’s dismissal-sanction finds no support in
any case law anywhere in the country and amounts to pure
judicial tyranny. The Fourth Circuit’s unpublished, oneparagraph affirmance that validated the “judicial tyranny”
below should be reversed as a matter of law.
Because it has been 30-plus years since the Court’s most
recent guidance on this issue was provided in Chambers v.
NASCO, Inc., 501 U.S. 32, 111 S. Ct. 2123, 115 L.Ed.2d 27
(1991), apparently with no subsequent direct guidance, the
Court should grant certiorari, reverse the lower courts’
indefensible judgments, and provide further guidance on this
important issue, as well as taking action against counsel.
CONCLUSION
For the foregoing reasons, Petitioner Sae Han Sheet
Company respectfully requests that this Court grant
certiorari; reverse the judgments of the lower courts; and
remand to a new district judge for completion of the case
because the judge below is clearly prejudiced against Sae
Han, an entity from outside the district, from outside the
country, and who expects a fair and neutral court.
Dated: March 1, 2021
Respectfully submitted,

Michael S. Kimm
Counsel for Petitioner
-29-

Appendix A

-30-

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF VIRGINIA DANVILLE DIVISION
SAE HAN SHEET CO.; LTD.,
Plaintiff,
v.
COMMONWEALTH LAMINATING AND COATING, INC.,
et al.,
Defendants.
Case No. 4:18cv00074
MEMORANDUM OPINION By: Hon. Jackson L. Kiser
Senior United States District Judge
This matter is before the Court on Defendant Eastman
Performance Films' Motion to Dismiss.1 [ECF No. 42.] The
motion was submitted on brief without oral argument. I
have reviewed the pleadings, arguments, and relevant law.
For the reasons stated herein, I will grant the Motion to
Dismiss and dismiss this case.
Plaintiff Sae Han Sheet Co., Ltd. ("Plaintiff') is a South
Korean company engaged in international trade. Defendant
Eastman Performance Films ("Eastman") is the ultimate
successor to Commonwealth Laminating and Coating, a
Virginia company which may have manufactured some or all
the goods at issue in this case. The relevant factual

1 Although Eastman Performance Films was not technically a party to
the cited motion to dismiss, it joined in that motion in its entirety. (See
Mot. to Dismiss pg. 2, May 31, 2019 [ECF No. 45].) By agreement between
the parties, the dismissed parties' Motion to Dismiss remained pending for
Eastman Performance Films. (See Order3, Sept. 10,2019 [ECF No. 71].)

App-1

allegations are relatively unchanged from my prior opinion.
(See Mem. Op. pgs. 1-3, Apr. 11,2019 [ECF No. 34].)
As relevant to the present motion, the Local Rules of this
court provide for fourteen days for a response to any motion.
See Local Civ. R. 14(c)(1). Moreover, the Pretrial Order issued
in this case states:
Briefs in opposition must be filed within 14
days of the date of the service of the movant's
brief (or within 14 days of this Order is a motion
and brief have been served prior to this Order).
EXCEPT FOR GOOD CAUSE SHOWN, IF
BRIEFS IN OPPOSITION TO THE MOTIONS
ARE NOT FILED, IT WILL BE DEEMED
THAT THE MOTION IS WELL TAKEN.
(Order4, Jan. 4, 2019 [ECF No. 24].) The quoted language
from the Pretrial Order was also directly referenced in my
prior opinion on a motion to dismiss. (Mem. Op. pg. 3 n.3,
Apr. 11, 2019 [ECF No. 34].)
The present Motion to Dismiss2 was filed on May 13, 2019
[ECF No. 42]; Plaintiff did not file a response in opposition
until June 3 [ECF No. 48]. Plaintiffs response, therefore, was
filed twenty-one days after the initial motion and in plain
violation of the Local Rules and Pretrial Order. At no point
did Plaintiff seek leave to file a late response and, to date, it
has failed to offer any justification whatsoever for its late

2 Although Eastman was not a party to that Motion, it filed its
own Motion to Dismiss on May 31. [ECF No. 45.] By agreement of the
parties, however, Eastman's Motion to Dismiss was supplanted by the
previously filed Motion to Dismiss. Accordingly, and with the consent of
Plaintiff, the earlier Motion to Dismiss is the operative one at this point.

App-2

response.
A district court has the authority to dismiss an action if a
party violates the court's orders or local rules. See, e.g., C.H.
v. Asheville City Bd. ofEduc., No. 1:12-CV-000377, 2014 WL
1092290, at *1 (W.D.N.C. May 18, 2014). Ordinarily, I would
not grant a motion to dismiss merely because a party
responded seven days past the time set forth in the Local
Rules and the Pretrial Order. In the present case, however,
Plaintiff was served with the Pretrial Order and expressly
warned in a prior opinion that late filings were not permitted
without the express approval of the court. In contravention of
that warning, Plaintiff again filed a late response to a Motion
to Dismiss. When confronted with Defendant's response in
which the timeliness issue was raised [see ECF No. 50],
Plaintiff failed to seek leave of the court to accept its late
response and failed to offer any justification for its improper
filing.
"When an act may or must be done within a specified time,
the court may, for good cause, extend the time . . . on motion
made after time has expired if the party failed to act because
of excusable neglect." Fed. R. Civ. P. 6(b)(l)(B). More than
three months after the fact, Plaintiff has failed to file a
motion asking the court to extend the time in which it was
permitted to file its response, and it has failed to offer any
justification to show that its neglect was excusable.
Considering the totality of the circumstances and Plaintiff's
failure to seek leave for its actions or offer any justification
whatsoever, Defendant's Motion to Dismiss will be deemed
well-taken, the Motion will be granted, and Plaintiff's
complaint will be dismissed.
The clerk is directed to forward a copy of this Order to all
counsel of record.

App-3

ENTERED this 24th day of September, 2019.
/s/ Jackson L. Kaiser
UNITED STATES DISTRICT JUDGE

App-4

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF VIRGINIA DANVILLE DIVISION
SAE HAN SHEET CO., LTD.,
Plaintiff,
v.
COMMONWEALTH LAMINATING AND COATING, INC.,
et al.,
Defendants.
Case No. 4:18cv00074
ORDER
By: Hon. Jackson L. Kiser
Senior United States District Judge
This matter is before the Court on Defendant Eastman
Performance Films' Motion to Dismiss. [ECF No. 42.] The
motion was submitted on brief without oral argument. I have
reviewed the pleadings, arguments, and relevant law. For the
reasons stated the accompanying Memorandum Opinion, the
Motion is hereby GRANTED and the Amended Complaint is
DISMISSED. The clerk is directed to close this case.
The clerk is directed to forward a copy of this Order to all
counsel of record. ENTERED this 24th day of September,
2019.
/s/ Jackson L. Kaiser
UNITED STATES DISTRICT JUDGE

App-5

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF VIRGINIA DANVILLE DIVISION
OCT 10 2019
SAE HAN SHEET CO., LTD.,
Plaintiff,
v.
EASTMAN PERFORMANCE FILMS, LLC,
Defendant.
Case No. 4:18cv00074
ORDER
By: Hon. Jackson L. Kiser
Senior United States District Judge
This matter is before the Court on Plaintiff's Sae Han Sheet
Co.'s Motion for Reconsideration [ECF No. 79]. While the
court accepts Plaintiff's apology for its dilatory filings, its
motion does nothing to address the months-long delay in
presenting the court with a rationale for its neglect.1 Plaintiff
was alerted on two prior occasions to the rules regarding the
time limits for filing responses (see Local Civ. R. 11(c)(1);
Pretrial Order 4, Jan. 4, 2019 [ECF No. 24]), and expressly
warned of the same in a written opinion (Mem. Op. pg. 3 n.3,
Apr. 11, 2019 [ECF No. 34]). Plaintiff's neglect and/or dilatory
tactics are simply unacceptable and violate the court's local
rules and orders entered in this case.
Plaintiff also points to the fact that two competing motions
1 The issue of the timeliness of Plaintiff's response was first raised in a
reply brief filed on June 10, 2019 [ECF No. 50]; Plaintiff presented its
excuse, for the very first time, on October 7 [ECF No. 79].

App-6

to dismiss were filed, and contends its error in replying in a
timely fashion was due to having two motions with different
response deadlines. After the issue of Plaintiff's timely
response was pointed out, however, Plaintiff expressly agreed
that the earlier-filed motion-the one to which it had failed to
reply in a timely manner and which said fault had already
been raised in a brief with the court-would be the operative
one on which the court would rule. (See Stipulation of
Dismissal, Sept. 6, 2019[ECF No. 68].) Even if there was
confusion over when to reply, after Plaintiff's error was
pointed out it agreed that the motion to which it had not
replied in a timely manner would be operative, and it offered
no justification for its delayed response.
Under Fed. R. Civ. P. 60(b)(1), a party may seek relief from
a final judgment or order for "mistake, inadvertence, surprise,
or excusable neglect." I find that Plaintiff's has not shown any
of these grounds for relief. The court's rules and orders are
clear, and Plaintiff ignored them at its own peril. Finding no
"other reason that justifies relief," Fed. R. Civ. P. 60(b)(6),
Plaintiff's Motion for Reconsideration is hereby DENIED.
The clerk is directed to forward a copy of this Order to all
counsel of record.
ENTERED this 10th day of October, 2019.
/s/ Jackson L. Kiser
SENIOR UNITED STATES DISTRICT JUDGE

App-7

UNPUBLISHED
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
No. 19-2080
SAE HAN SHEET CO., LTD.,
Plaintiff - Appellant,
v.
EASTMAN PERFORMANCE FILMS, LLC,
Defendant - Appellee,
and
COMMONWEALTH
LAMINATING AND COATING,
INC.; EASTMAN CHEMICAL CORP.; JOHN DOES 1
THROUGH 20; ABC COMPANIES 1 THROUGH 20;
CPFILMS INC., a Delaware Corporation; SUNTEK
HOLDING COMPANY, a Delaware corporation; 2010
ACQUISITION CORP., a Delaware corporation,
Defendants.
No. 19-2125
SAE HAN SHEET CO., LTD.,
Plaintiff - Appellant,
v.
EASTMAN PERFORMANCE FILMS, LLC,
Defendant - Appellee,
and
COMMONWEALTH LAMINATING AND COATING, INC.;
EASTMAN CHEMICAL CORP.; JOHN DOES 1 THROUGH
App-8

20; ABC COMPANIES 1 THROUGH 20; CPFILMS INC., a
Delaware Corporation; SUNTEK HOLDING COMPANY, a
Delaware corporation; 2010 ACQUISITION CORP., a
Delaware corporation,
Defendants.
Appeals from the United States District Court for the
Western District of Virginia, at Danville. Jackson L. Kiser,
Senior District Judge. (4:18-cv-00074-JLK-RSB)
Submitted: October 26, 2020
Decided: November 17, 2020
Before AGEE and RICHARDSON, Circuit Judges, and
SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Michael S. Kimm, KIMM LAW FIRM, Englewood Cliffs, New
Jersey, for Appellant. Robert W. Loftin, Matthew D. Fender,
Andrew F. Gann, Jr., MCGUIRE WOODS LLP, Richmond,
Virginia, for Appellee.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Sae Han Sheet Co., Ltd. appeals the district court's orders
dismissing Sae Han's complaints and denying Sae Han's
motion for reconsideration. We have reviewed the record and
find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. Sae Han Sheet Co., Ltd.
v. Eastman Performance Films, LLC, No.
4:18-cv-00074-JLK-RSB (W.D. Va. Sept. 24, 2019; Oct. 10,
2019). We dispense with oral argument because the facts and
App-9

legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional
process.
AFFIRMED

App-10

FILED: December 15, 2020
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
No. 19-2080 (L)
(4:18-cv-00074-JLK-RSB)
_
SAE HAN SHEET CO., LTD.
Plaintiff - Appellant v.
EASTMAN PERFORMANCE FILMS, LLC
Defendant - Appellee
and
COMMONWEALTH LAMINATING AND COATING, INC.;
EASTMAN CHEMICAL CORP.; JOHN DOES 1 THROUGH
20; ABC COMPANIES 1 THROUGH 20; CPFILMS INC., a
Delaware Corporation; SUNTEK HOLDING COMPANY, a
Delaware corporation; 2010 ACQUISITION CORP., a
Delaware corporation
Defendants
No. 19-2125
(4:18-cv-00074-JLK-RSB)
_
SAE HAN SHEET CO., LTD.
Plaintiff - Appellant
v.
EASTMAN PERFORMANCE FILMS, LLC
App-11

Defendant - Appellee
and
COMMONWEALTH LAMINATING AND COATING, INC.;
EASTMAN CHEMICAL CORP.; JOHN DOES 1 THROUGH
20; ABC COMPANIES 1 THROUGH 20; CPFILMS INC., a
Delaware Corporation; SUNTEK HOLDING COMPANY, a
Delaware corporation; 2010 ACQUISITION CORP., a
Delaware corporation
Defendants
ORDER
The court denies the petition for rehearing and rehearing en
banc. No judge requested a poll under Fed. R. App. P. 35 on
the petition for rehearing en banc.
Entered at the direction of the panel: Judge Agee, Judge
Richardson, and Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk

App-12

